Table of Contents
        Preface                     1
        Map of Insular Areas        2

        GUAM                        4


        COMMONWEALTH OF THE
                                    8
        NORTHERN MARIANA ISLANDS

        FEDERATED STATES OF
                                   12
        MICRONESIA


        AMERICAN SAMOA             19



        REPUBLIC OF PALAU          22


        REPUBLIC OF THE
                                   25
        MARSHALL ISLANDS


        U.S. VIRGIN ISLANDS        28


        Recommendations            31
PREFACE
                                                                   storms have shown their strength and left health care
                                                                   facilities damaged in the past and staff nervous for the
                                                                   future.
                                                                        Hospitals also struggle to recruit and retain nurses,
    The insular areas are unable to provide compre-                physicians, and specialty practitioners. Salaries incom-
hensive health care services to their citizens, and as             parable to those in the United States mainland fail to
a result, critically ill patients are boarding planes and          attract personnel. Sizable nursing vacancies stretch the
crossing thousands of miles of ocean for services they             workdays and eliminate vacation time for nursing staff.
are literally dying to receive. With few local specialty           Specialty physicians, who sometimes serve as the only
physicians and crumbling infrastructures pushed far be-            one of their kind for an island’s entire population, are
yond their limits, insular area public hospitals and clin-         on call 24 hours a day, 7 days a week, year round. Most
ics struggle to provide patient care. The dedicated, and           often, overtime pay and compensatory leave are not an
often creative, hospital staffs work long hours with few           option.
supplies, all with the looming reality of their health care             Quite often it is the hospitals’ lack of specialty prac-
systems sinking in debt.                                           titioners such as cardiologists, oncologists, and trauma
    In December 2007, at the annual meeting between                care personnel that sends patients searching for a way
the Office of Inspector General and the Public Audi-               to get off island. Some facilities continuously struggle
tors for insular area islands, the group decided to un-            to cover the monumental costs of air transport and off-
dertake a joint evaluation to assess the state of health           island medical services; others are forced to leave this
care facilities and the delivery of health services in the         expense to their patients. Unfortunately, insular area
U.S. territories and compact nations. We launched this             patients often cannot afford the multi-thousand dollar
effort in June 2008, conducting interviews of health               trips off island, or they are in conditions too fragile for
care officials and providers in seven insular locations.           safe travel. Many die before they ever find a way out.
Understanding that an entirely comprehensive and in-                    For patients who are able to receive treatment on
depth review was unrealistic for an endeavor with a                island, medical supplies such as IV pumps, incubator
quick turnaround, we worked together with Public Au-               lights, bedside commodes, and even gloves are avail-
ditor staff to take “snapshots” of the conditions affect-          able in limited quantities. Hospital nurses and physi-
ing health care delivery in the insular areas. Our goal            cians are left sharing supplies between patients or even
was to combine personal observations and interviews                purchasing them with their own money. Medical equip-
to produce a report that offers a flavor of the difficulties       ment is antiquated and unreliable and, again, comes in
and challenges existing in the insular areas in a format           limited numbers, leaving nurses with no choice but to
that affords easy reading.                                         “double up” on newborns in incubators.
    In an attempt to foster candor with those we spoke                  The fundamental infrastructure of insular area hos-
to, we made a commitment at the project’s commence-                pitals is also old and unreliable. Island-wide power fail-
ment that the identities of those interviewed would not            ures leave health care facilities relying on overworked
be revealed. Our intention has not been to embarrass               and faulty back-up generators – or even worse – in the
or criticize the good work of insular area health care             dark. Electrical issues also interrupt one hospital’s wa-
providers and administrators. Rather, we wanted to de-             ter supply; resultantly, this facility has no running water
velop objective observations and identify trends that              for as many as 8 to 9 hours a day. Critical operational
would enable the Secretary and insular area officials to           equipment such as incinerators are inadequate or non-
focus strategically on solutions to the unrivaled chal-            existent and thousands of bags of biohazardous waste
lenges this unique population experiences in the deliv-            litter another hospital’s grounds. In other instances,
ery of health care.                                                biohazardous waste is burned in open bins at dump
    The trends are manifest and create significant hur-            sites where children rummage.
dles to providing quality patient care. The most notable                No simple solutions lend themselves to correct
commonality among the seven locations lies in their                these startling trends. We hope, however, that this re-
unique and sometimes treacherous geographic loca-                  port will provide the basis for meaningful discussion
tions. Extreme remoteness coupled with the unforgiving             and development of long-term solutions that will help
elements of nature are undying problems for hospitals              improve the state of health care facilities and the deliv-
and clinics in the insular areas. Typhoons and tropical            ery of health services in the insular areas.
                                                               1
2
3
Guam




     Around 4 a.m., a nurse at the Guam Memorial Hos-
pital boarded an ambulance bound for the A. B. Won Pat
International Airport. She had just finished working the
night shift, during which a woman in her late 20s had
come to the emergency room, complaining of a severe
headache, and then passed out. Physicians determined
she was bleeding in her brain, but no neurosurgeon was
on hand to treat her.
     After arriving at the airport, the nurse, a respiratory
therapist, and the young woman boarded a Continental
Airlines jet and prepared for an arduous trip to Hawaii
to see a neurosurgeon. The ventilator had to be left be-
hind because it had not been approved by Federal Avia-             The GMHA parking lot is at maximum capacity by 10 a.m.
tion Administration. The nurse sat toward the back of              California, and the Philippines. Due to the lengthy
the plane, where several rows of chairs were laid flat             lapse in time before patients can receive specialized
for the stretcher, and pressed on a plastic bubble full            care, some patients in critical condition do not make
of air connected to her patient’s mouth. She counted,              it back alive, and the nurses who accompany them are
“One, two,” then pressed again. She and the respiratory            often left exhausted, yet forced to resume their duties
therapist would alternate doing this for 7 hours, know-            upon return.
ing that the woman’s life depended on the precision of                  Guam, which has a population of 173,456 people,
their movements. After landing in Hawaii and turning               only has one public hospital, which is severely un-
the patient over to emergency personnel, the nurse flew            derstaffed and underfunded. This causes a litany of
back to Guam the next night and reported to work the               problems including a high staff turnover rate and the
following day. Her patient did not survive.                        inability to recruit physicians and nurses, leaving local
     This nurse is one of 304 nurses at the Guam Memo-             citizens with few options for specialized care. GMHA
rial Hospital Authority (GMHA) who are often required              staff noted that 80 percent of their patient population is
to accompany patients off island for serious treatments            also uninsured or receives medical assistance from the
– some needing neurosurgery, hip replacements, open                Department of Public Health.
heart surgery, or cancer care – due to GMHA’s severe                    The hospital structure itself is also in extreme need
shortage of physician specialists. Four to six GMHA                of attention. Due to the small size of the building and
patients each month are referred to hospitals in Hawaii,           lack of space, the facility is so overcrowded that patients
                                                               4
are lining up waiting for beds. GMHA physicians noted its main source of employees reside 6,000 miles away.
that emergency-room patients are sometimes placed in They also stated that physician salaries in Guam are
the pediatric and maternity wards due to the shortage much lower than those of physicians in the United
of beds – most of which are placed barely 3 feet apart States.
with little room for visitors. By 10 a.m., the parking lot      Due to Guam’s extreme remoteness, relocating to
is so packed with vehicles, patients and visitors have to the area can also be expensive, and GMHA staff noted
leave their cars on neighborhood side streets.              that the hospital currently only covers airfare for new
     GMHA officials anticipate that with the Civilian hires, not including family, and 2,500lbs of their per-
Military Buildup, Guam will experience a population sonal belongings. The physicians are responsible for all
spike by 2014 of approximately 40,000 more people. other costs associated with their move.
In addition to this spike, officials anticipate Guam’s          GMHA officials explained that consequently, re-
normal population to grow at a rate of approximately cruiting medical staff to Guam has been challenging,
3,000 people per year. To remain consistent with the and physicians who do venture to the island typically
U.S. national average of 2.8 acute care hospital beds do not stay long due to low salaries and the long hours
per 1,000 persons, GMHA officials stated that they of work associated with inadequate staffing levels.
would essentially need to expand                                                These conditions breed a cycle of
the hospital’s acute care bed capac-                                            high turnover, greatly disrupting
                                              You can add 10
ity from 172 to 250 beds within the
next 5 to 7 years.                     “more      beds,
     There are currently two com- 100 more beds, but we
                                                           you    can   add
                                                                                the continuity of care for patients.
                                                                                    GMHA explained that while
                                                                                nurses are scheduled to work a de-
munity health centers (or clinics) just don’t have enough                       fined 8-hour shift, they sometimes
located on Guam that provide med- staff for it….You can                         work up to 12 hours in one day. The
ical services to individuals, again
regardless of their ability to pay.
                                        only
                                                     “
                                                overwork       your    staff
                                                                                nurses said they often give up time
                                                                                off, including vacations, and stated
While both the clinics and the hos- so much.                                    that while the nursing director nor-
pital share physicians and nurses,                                              mally functions in a supervisory
GMHA consistently refers all hospitalized patients to role, at GMHA she works as a floor nurse as well to
the clinics for follow-up care. The clinics, like GMHA, accommodate the shortage of staff.
are short staffed, low on supplies, and tight on space.         “You can add 10 more beds, you can add 100 more
     “The clinics are overflowing and patients are wait- beds, but we just don’t have enough staff for it….You
ing all day to be seen,” a public health official said.     can only overwork your staff so much,” one hospital
     The clinics receive more than 30 “walk-in” appoint- staff member said.
ments a day, and in order to accommodate the increasing         A GMHA physician commented on the ramifica-
demand, they have extended normal clinic hours of op- tions of having one radiologist to service Guam’s entire
eration until 7 p.m., according to public health officials. population. “He comes in at 9 o’clock in the morning
     GMHA management stated that the hospital and and he doesn’t leave until midnight. He doesn’t get paid
clinics are “mandated to provide acute care services to for all those hours.” The physician noted that having
all patients presenting at its doors” regardless of their so few specialists often means the ones they do have
ability to cover the cost of care. According to GMHA are unable to take vacations and are constantly on call.
officials, GMHA’s requirement to provide care to a “This hospital runs in spite of itself,” he said.
population that is largely uninsured leaves the medical         Most notably, GMHA struggles with its ability to
facility, and private insurers, accountable for $30 mil- attract and maintain specialty physicians such as on-
lion a year in health care costs. For those patients who cologists, orthopedic surgeons, and cardiologists. This
have no form of payment or insurance, GMHA absorbs becomes problematic when emergency specialty care
the expense.                                                is needed. GMHA staff recalled a situation in which
     “This makes it very difficult to sustain operations a physician had to conduct a procedure he had never
and make capital improvements,” a hospital official performed before in order to stabilize a patient so the
said.                                                       individual could be sent off island for further care.
     GMHA physicians noted that legally, Guam can               Referring patients off island is another symptom
only employ U.S.-licensed physicians, which means of having few available specialists. Patients with seri-
                                                         5
ous medical conditions                                                                 GMHA staff stated that the
are often forced to travel                                                             Compact of Free Associa-
anywhere from 3 to more                                                                tion requires that GMHA
than 18 hours by plane,                                                                provide health care ser-
many times with nurses in                                                              vices to the citizens of the
tow.                                                                                   Federated States of Micro-
     The majority of costs                                                             nesia, and in return, Guam
associated with off-is-                                                                receives several million
land referrals, including                                                              dollars in annual Compact
airfare, meals, medical                                                                Impact Grant Funding.
procedures, lodging, and                                                                   Hospital officials noted
ground transportation, are                                                             that the amount of fund-
the responsibility of the                                                              ing it is provided to treat
patient. GMHA explained Extremely small patient rooms are not family friendly,         this population “does not
that the majority of pa- leaving little to no space for visiting family or friends. sufficiently recuperate the
tients, even with insur-                                                              costs incurred.” GMHA
ance, are unable to cover                                                             nurses noted that they even
the costs of off-island re-                                                           struggle with what they
ferrals. In the event that                                                            call “fly-by births,” adding
a patient cannot afford                                                               that many times expectant
to cover these costs, they                                                            mothers residing in the Fed-
simply are unable to re-                                                              erated States of Micronesia
ceive off-island care.                                                                will travel to Guam simply
      There are additional                                                            to deliver their children on
factors that can inhibit                                                              U.S. soil to ensure their
patients’ abilities to ac-                                                            child can have U.S. citizen-
cess off-island specialty                                                             ship as well as be eligible
care. GMHA staff stated                                                               for other public assistance
that the process of ad-                                                               services. GMHA staff stated
ministratively referring                                                              that these are often high-
and physically relocating a patient off island to receive risk pregnancies due to the fact that the mothers have
care can at times take months. Patients seeking off-is- received little to no prenatal care and come to GMHA
land care must also be in a stable enough condition to with no available medical history or records.
fly. GMHA reported an instance where a patient requir-         While GMHA continues to struggle with issues re-
ing neurosurgery after experiencing head trauma was lated to personnel shortages and high turnover rates, it
unable to fly off island due to his condition and there- also faces the problem that the hospital physically can-
fore died.                                                 not accommodate new technology or specialty services.
     “A lot of people are dying because they can’t get The infrastructure of GMHA has already been pushed
health care when they need it,” a GMHA official said. far beyond its appropriate capacity, and there is literally
     GMHA nurses noted that Continental Airlines is the no unutilized space left.
only airline servicing this population, and it requires        GMHA staff stated that they suffer from a lack of
that patients recently suffering from heart complica- storage space for medical records, which requires per-
tions must wait 10 days before boarding an off-island sonnel to keep the inventory of older patient records off
flight. Naturally, waiting to receive care can potentially site. “It can take more than a week to pull a record,”
compound a patient’s medical problems, or in some in- one hospital staff member said of the remote storage
stances lead to death.                                     containers used to house the documents.
     As staff noted that GMHA is unable to cover the           Hospital staff also explained that these storage ar-
costs of sending its patients off island for treatment, it eas are notoriously susceptible to the elements of the
is equally unable to cover the cost of caring for patients weather, and documents have often been damaged by
travelling from the Freely Associated States to Guam. water leakage.
                                                        6
     The hospital rooms themselves are extremely small
and not family friendly. Most of the patients’ rooms
contain two beds, which are barely 3 feet apart, sepa-
rated only by a thin curtain. The only space available to
family members who come to visit is a small recliner
chair pushed up against the end of the bed. It would be
nearly impossible to accommodate more than one fam-
ily member, a nurse, and the patient in the room at the
same time.
     “We have stretchers next to the sink because there’s
not enough room,” an emergency room staff member,
who is typically responsible for as many as seven pa-
tients at one time, said. “It gets really bad.”
     As stated previously, due to population growth,             Six donated ambulances service the entire population
                                                                 of Guam.
GMHA anticipates it will need to expand its patient
capacity to approximately 80 acute care beds within              officials noted that they continuously struggle with out-
the next 5 to 7 years. GMHA estimated this expansion             standing balances with the vendors they contract with,
would cost $70 million. While an expansion of its bed            often resulting in a delay of receiving supplies and po-
capacity would necessitate an expansion of the hospi-            tentially endangering patients. GMHA cited instances
tal, GMHA would still be tasked with addressing the              where salts and filters used to treat the “extremely high
ever-growing list of problems that plague the current            levels of calcium and magnesium” in the hospital’s wa-
infrastructure of the hospital.                                  ter supply were unavailable due to outstanding balances
     For example, GMHA officials explained that the              with its suppliers.
hospital’s ventilation system needs updating. While                   Not only do outstanding balances affect GMHA’s
two of the four floors have new systems, two floors still        ability to obtain necessary supplies, but GMHA offi-
have ventilation systems that GMHA calls “unhealthy.”            cials claim the overall lack of funding creates hospital-
The areas lacking clean ventilation units include the            wide shortages of everyday equipment. Officials noted
emergency room, the operating room, and the nursery.             that they consistently have a lack of items such as IV
GMHA estimated the renovation of the ventilation sys-            pumps, feeding pumps, stretchers, and personal protec-
tem to be a $2.5 million project.                                tion equipment including gloves and masks. Hospital
     GMHA officials also worry that the hospital struc-          staff explained that supplies are often shared between
ture will be unable to withstand another strong typhoon          patients, and nurses are left running from one bed to the
like Pongsona, which hit in December 2002. Hospital              next looking for the supplies they need.
staff recalled that during Pongsona, interior walls of the            “We share simple things like bedside commodes,”
facility collapsed, windows were blown out, patients             one hospital staff member said. “We wipe them down
had to be evacuated from the intensive care unit and             so fast to transfer to the next patient; hopefully they are
pediatrics, and parts of the hospital were without power         cleaned well enough.”
for 24 hours.                                                         GMHA also noted that emergency transportation to
     A morgue employee stated that due to the power              the hospital was difficult due to a “serious lack of re-
outage, the GMHA morgue, which has the space to hold             sources.” There are currently only six functioning am-
eight bodies in two separately refrigerated sections, lost       bulances, maintained and controlled by the Guam Fire
power in one of the sections and actually had to “double         Department, that service the 19 villages and 336 square
up” on bodies in each space.                                     miles of Guam. All ambulances have been donated by a
     “By the time the power was up, the bodies were              variety of organizations.
so decomposed, they had to be cremated,” a morgue                     One GMHA staff member said, “In the event of a
employee said of the bodies that could not fit in the re-        mass casualty, we would not be able to transport pa-
frigerated space.                                                tients to the hospital in a timely manner.”
     While the infrastructure may be antiquated and unre-             GMHA officials added that the facility’s contingen-
liable, smaller daily tasks occurring within the hospital        cy plan in the event of a mass casualty would involve
walls are affected by hospital-wide shortages. GMHA              using school buses to transport patients. z
                                                             7
 Commonwealth of the Northern
 Mariana Islands
  SAIPAN
     Sunlight beamed through
the windows of the small,
white and blue, stucco
building as beads of sweat
trickled down the faces
of patients sitting in neat
rows of black chairs. They
fanned themselves with pa-
pers as new patients walked
through the clinic door, an
unpleasant wave of heat
hitting them. A nurse posi-
tioned her face inches from
a scale as she weighed a small child, squinting to see procedures at a moment’s notice.
the numbers in the darkness.                                    “The place we are at is scary and there is an incred-
     Another nurse with jet-black hair pulled up in a pony- ible pressure to keep cutting back on things,” a CHC
tail, matted with sweat, stood next to the reception desk, physician noted. “We are at the crossroads of a total
her face glistening from the heat. “The power has been breakdown.”
on and off all morning,” she said. “This happens a lot.”        The power situation in Saipan affects CHC and the
     Saipan, the largest of the 14 Northern Mariana Is- Southern Community Health Clinic on a daily basis.
lands, loses power, island-wide, multiple times a day Clinic staff operate without power as if it comes natu-
due to faulty power plant engines, leaving the Southern rally, barely flinching as the lights go out several times
Community Health Clinic with
no electricity and the Common-
                                                                     “             a day. The clinic has already lost
                                           We are at the crossroads two generators, after they were
wealth Hospital Center (CHC)
relying on an overworked
back-up generator. When the
                                   “ of a total breakdown.                         stolen by vandals. When the
                                                                                   power goes out for more than 3
                                                                                   hours, nurses pack immuniza-
hospital’s back-up generator fails, doctors and nurses tions in ice so they do not spoil.
scramble to assist patients on ventilators, connecting          CHC’s backup generator kicks on two to three times
them to manual breathing equipment where staff have a day as the power goes out. But sometimes there is a
to squeeze air into the patients’ lungs. “There have been delay, and CHC staff worry that using the backup gen-
times when the backup generator did not come on for erator so often is prematurely aging the equipment.
10 to 20 minutes,” one CHC staff member said.                   CHC staff added that due to a lack of funding, the
     Power outages are one of numerous problems that hospital maintains no spare parts for its generators,
plague CHC and the Southern Community Health Clin- which are over 20 years old.
ic. CHC also suffers from old equipment that poses a            CHC’s boiler has also been on the hospital’s “to-
serious health risk and liability; poor record-keeping do” list for the past 7 years. Staff said the boiler is over-
systems, with sheets of medical records drifting from sized and runs inefficiently, noting that recently a faulty
tall, unorganized stacks; few everyday supplies, such as steam valve accidentally ran scalding water through
blood for transfusions; and a lack of physician special- sterilization equipment, melting $11,000 worth of med-
ists, many of whom are needed to perform life-saving ical scopes.
                                                         8
The medical records filing room at CHC is overflowing with stacks of patient charts that are waiting to be filed.

    “We were just grateful that water didn’t come out of
a patient’s shower,” a hospital staff member said.
    Records management is another severe problem at
CHC. One hospital official jokingly said, “What medi-
cal records system?” when asked how patients’ charts
and medical histories were filed.
    Currently CHC maintains the majority of its medi-
cal records in hard copy format. Staff admitted that
overall, files are incomplete and inaccurate. Discharge
summaries, while dictated and transcribed at the time of
the patient’s discharge, do not get filed for up to 1 year,
according to CHC staff. This lack of timeliness in filing
patient records has created a medical records room that
is overcrowded, unorganized, and, physically, a mess.
    Medical records pile up on tables, desks, floors, and
even windowsills waiting to be filed; charts become so
full and unorganized that pages are torn and lost.
    “It is disheartening when we have to tell a patient
we can’t find their record,” one physician said.                  in a timely manner due to the hospital’s outstanding bal-
    CHC’s problems with records management have af-               ances with vendors, discussing a recent incident where
fected billing as well. Staff stated that they are unable         the hospital completely ran out of the strips used to test
to appropriately bill patients in a timely manner due             patients’ blood sugar.
to the lack of an effective patient chart-filing system.              “We never pay on time; sometimes we don’t pay,”
While CHC would like to install an electronic system              one hospital staff member said.
that would allow immediate billing, it lacks the funding              CHC staff even recalled several instances where
and personnel to maintain it.                                     they had to overnight blood from Guam because the
    Staff said they also struggle with receiving supplies         hospital ran out.
                                                              9
    “We shouldn’t have to go begging for blood,” a
CHC staff member said.
    CHC noted that because of its poor reputation for
non-payment, it often had no choice in which vendors
it used.
    “We have to use the ones that will accept the fact
that they won’t get paid for 6 to 7 months,” one physi-
cian said.
    CHC also has a serious lack of small-scale medi-
cal equipment and supplies. A hospital staff member
noted that CHC “often run[s] out of appropriate sized
needles,” adding that the hospital did not have any renal
biopsy or spinal needles. CHC also frequently runs out
of lab reagents for basic laboratory procedures. Staff
expressed dismay with the supply dilemmas they con-
front when treating patients.
    “The physicians are the face of health care here,”
one physician said. “The families think the doctors are
inadequate, all because of our lack of resources. This
has a tremendous effect on patient care and physician
morale.”
    Obtaining physician specialists is another obstacle
for CHC in ensuring patients with more serious condi-
tions are treated. While CHC has been able to maintain
enough physicians to tend to acute cases, they continu-       CHC employees say the current hemodialysis unit
                                                              resembles a “morgue.”
ally struggle with retaining and recruiting specialists.
The specialty providers whom they do successfully re-         years, the medical referral program’s annual budget has
cruit to the area typically leave within a 2-year time pe-    been $3.7 million. The patients or their insurers are re-
riod due to salary and benefits packages in Saipan that       sponsible for the cost of the medical procedure, and if
are not as competitive as those available in the United       they are unable to cover the cost, they are given the op-
States.                                                       portunity to sign a promissory note to prevent delay of
    According to CHC staff, the local medical licensure       receiving care.
board requires that all physicians at CHC be licensed in          Depending on the patients’ needs, CHC generally
the United States or Canada, which means they may not         refers patients to Guam, the Philippines, or Hawaii.
recruit physicians from much closer locations like New        Once approved, the referral program will cover a pa-
Zealand, Australia, or the Philippines.                       tient’s airfare, hotel accommodations, per diem, and the
    Because it is so difficult for CHC to recruit special-    costs for an accompanying hospital escort.
ty physicians, patients requiring specialty care must be          CHC staff stated that while some patients genuinely
referred to off-island providers. Those who need imme-        needed the off-island care, some viewed the medical
diate attention are often unable to receive it, sometimes     referral program as a “ticket to a free vacation.” Staff
resulting in death. CHC staff noted a particular instance     added that there was “no accountability” for the per
when the lack of a cardiologist resulted in the death of a    diem money given to patients sent off island, and staff
patient who was too sick to travel and needed a cardiac       recalled instances where it was spent on items such as
valve transplant. Staff also recalled an instance where       leaf blowers and alcohol.
a patient with neurological abnormalities died while              One CHC physician said the medical referral pro-
waiting to be referred off island for an MRI.                 gram had become a political platform for public health
    CHC maintains a six-person committee composed             officials. “The legislature will not let us cut out benefits
of physicians and clinical psychologists who deter-           like this because it is a political commodity,” he said.
mine whether an off-island referral is warranted and, if          One specialty service that CHC has been able to
so, where the patient will be sent. For the past several      provide for its patients is hemodialysis, in part due to
                                                             10
the high incidence of diabetes in Saipan and the end-
stage renal disease and kidney failure that often devel-
ops as a complication of the disease. In 2001, under an
original construction contract of $5.6 million in U.S.
federal funds, CHC began construction of what was
originally intended to be a new hemodialysis unit that
would better accommodate its growing demand for
hemodialysis services. By June of 2007, the project’s
magnitude and scope brought its total budget to $17.6
million, deeming this project as CNMI’s largest capital
improvement project. The project evolved to include a
two-floor extension of the existing facility that would
contain a hemodialysis center on the upper level and
executive and administrative offices, a bio-terrorism
center, and a 10,000-square-foot medical warehouse on
the lower level. This state-of-the-art hemodialysis unit
is pristine, with private curtained areas for treatment,
plenty of room for visitors and family members, and
private consultation rooms.
     While the new administrative and executive offices
are currently being utilized, the 10,000 square foot med-
ical warehouse is completely empty, and the new hemo-
dialysis unit upstairs has yet to service one patient. The
new facility, a stark contrast to CHC’s currently func-
tioning hemodialysis unit – a tiny, one-room space that
hospital employees said resembles a “morgue” – has
been vacant since its completion. CHC staff said the
new unit still needs to be certified by Medicare, and
they hope to move into the facility “soon.”
     “We scowl at that hemo unit,” one physician said.
“It’s a sign of a failed health care system.”
     According to Hawaii State Survey Agency officials,
who act on behalf of Medicare regarding certification
                                                              CHC’s state-of-the-art hemodialysis unit (top) has yet
issues, during a June 2008 tour of the new dialysis fa-
                                                              to service one patient, and its new 10,000-square-foot
cility, problems with the physical layout and design          storage warehouse remains empty. CHC currently
of the unit prevented CHC from receiving approval to          uses rusting metal storage containers (below) to store
move into the new facility. A survey official said, “A        items such as patient records and medical supplies.
tour of the new water treatment system [for the dialysis
unit] found significant areas which need to be corrected
before the move to the new unit can be authorized.”
The official added, “Water treatment affects all hemo-
dialysis patients,” and noted that CHC’s current system
contained several issues that presented “the potential
for harm.” Survey officials also noted several structural
issues that would prevent clear visibility of patients by
nursing staff, another issue that needs correction before
CHC can use the new unit. An additional survey of the
facility was scheduled for July 2008; however, a survey
official said, “The survey was not done as it was deter-
mined that the new facility was not ready for survey.” z
                                                             11
Federated States of Micronesia
 POHNPEI
     A rusty, pock-marked,
blue pick-up truck sat at
the dump site, surround-
ed by mounds of trash. A
young man wearing a blue
baseball cap, a bright red T-
shirt, and dusty blue jeans
faded at the knee worked
rigorously in the bed of the
truck. Wearing only a pair
of thin, white latex gloves,
he tossed piles of biohaz-
ardous waste produced
from the Pohnpei State
Hospital into a Dumpster.
A cloud of heavy smoke
settled over the site from the smoldering waste. The
ground was strewn with used syringes, vials of liquid,
ashen specimen jars, grimy pill bottles, and dust-covered
plastic tubes. Used latex gloves and a cotton swab soaked
in yellow peeked out of a grey trash can in the truck.
     Pohnpei State Hospital has no safe method to burn
its biohazardous waste. Without an incinerator, govern-
ment contractors are left with the perilous task of per-
sonally disposing of hospital waste, putting their health
at risk on a daily basis.
     Biohazardous waste disposal is just one of many
troubles Pohnpei State Hospital is facing. The hospi-
tal has limited medical supplies and equipment, some-         The air at the dump site is filled with smoke as two men
times having to squeeze two infants in one incubator; a       work to burn the biohazardous waste from Pohnpei
deteriorating facility with cracks and a shifting founda-     State Hospital.
tion; and an overall lack of specialty physicians. Some       generated from the fires burning in open bins at the lo-
of these problems have contributed to patient deaths,         cal dump site is not actually hot enough to thoroughly
according to staff.                                           burn all of the biohazardous waste, exposing Pohnpei
     Pohnpei State Hospital services the island of Pohn-      citizens and waste management staff to a toxic envi-
pei, one of four states in the Federated States of Micro-     ronment. Piles of charred metal cans and half-burned
nesia. Twenty-five smaller coral atolls, or rings of coral    debris littered the dump site’s burn area.
islands, lying outside the barrier reef also encompass             Hospital staff claim they will soon be receiving an
the State of Pohnpei. The hospital offers assistance to a     incinerator from the Japanese International Cooperation
population of 34,000 people, including the main island        Agency, an independent government agency in Japan
and atolls.                                                   that assists developing countries with economic and
     Disposal of biohazardous waste is one of Pohnpei         social growth. A senior staff member at Pohnpei State
State Hospital’s major impediments to providing a safe        Hospital said the incinerator will be located on site at
environment for patients, staff, and the public. The heat     the hospital to give staff control of disposing waste.
                                                         12
A young man only wearing a thin pair of latex gloves unloads biohazardous waste from Pohnpei State Hospital
into a Dumpster to be burned (top). Used gloves, cotton swabs, and other medical waste fill a trash can that sits
in the bed of the pickup truck waiting to be unloaded (below).
                                                             machines resides in Guam, and commercial flights from
                                                             Pohnpei to Guam are not available on a daily basis.
                                                                 The needs list for the obstetrics ward is extensive:
                                                             thermometers, pediatric blood pressure cuffs, neonatal
                                                             blood pressure cuffs, neonatal and pediatric monitors,
                                                             pediatric masks, a ventilator, an otoscope, and pediatric
                                                             colostomy bags.
                                                                 With only two, 30-year-old incubators, hospital staff
                                                             said they often have to “double up” infants in the tiny
                                                             spaces. When this occurs, staff said the babies some-
    Hospital staff expressed concern about biohazard-        times pull each other’s feeding tubes out.
ous waste disposal within the facility as well. They said        With cramped quarters and outdated equipment, the
they sometimes have no alternative but to use plastic        hospital’s Physical Therapy unit also reported a need
bottles and standard black trash bags to dispose of waste    for supplies. Staff, which include one physical thera-
because they run out of the red biohazardous waste bags      pist, one technician, and an aide, said they need addi-
and the special containers for needles and syringes.         tional basic equipment such as an ultrasound machine,
    Pohnpei State Hospital is also in dire need of sup-      crutches, canes, walkers, a treadmill, therabands, a pul-
plies and medical equipment. Staff said they do not          ley system, parallel bars, and a grip master for hand
have a CT scanner or an MRI, and they need a new             exercises, just to name a few.
transformer for one of their two X-Ray machines. The             The condition of the actual facility itself is another
hospital only has two dialysis machines, and during the      major concern. The 30-year-old building has experi-
OIG’s visit, one was not working, leaving patients need-     enced structural cracks along its support beams, and
ing care in a dangerous position, relying on only one        staff reported that the hospital’s foundation has weak-
dialysis machine. The service provider for the dialysis      ened and shifted and the concrete roofing has multiple
                                                            13
                                                             a population of 34,000 people, staff are often left over-
                                                             worked and underpaid. Staff said the salaries in Pohn-
                                                             pei are far less than those offered in neighboring islands
                                                             such as Palau or the Marshall Islands.
                                                                 Staff said patients needing specialty care who can-
                                                             not receive it on island go before the off-island refer-
                                                             ral committee for approval. Of the 4,500 applicants for
                                                             off-island treatment per year, only approximately 300
                                                             are approved due to limited funding. The off-island re-
                                                             ferral process can take anywhere from 48 hours to one
                                                             week for emergency cases and up to months for elec-
                                                             tive cases. Hospital staff said there have been cases in
                                                             which patients have died while waiting for off-island
                                                             approval.
                                                                 Patients receiving off-island referrals are sent pri-
                                                             marily to the Philippines, which is an 8- to 10-hour
                                                             flight. Commercial airline policies require that patients’
                                                             cases are reviewed and approved by the airline before
                                                             the patient can be transported, according to hospital
                                                             staff. Continental Airlines, the local service provider,
                                                             has a dedicated person who reviews the case to deter-
                                                             mine if the airline will allow the patient to travel, staff
                                                             said. The patient must be in a stable condition and can-
                                                             not be contagious.
                                                                 Off-island referrals are costly, as they include trans-
The hospital’s ambulances are primitive and contain          portation, accommodations, and the cost of medical
no emergency response equipment or oxygen. Only a
                                                             care. The Pohnpei constitution states that the Govern-
simple gurney is found in the back of this ambulance.
                                                             ment of Pohnpei shall provide health care services for
irreparable leaks. The flat roof has been covered with       the public. If a patient has insurance, the expenses are
an aluminum roof, which has slowed the leaks, but the        partially absorbed by the provider, and the govern-
cracking continues. A senior staff member stated that        ment pays the rest. The hospital has an allocation of
he was gravely concerned about the integrity of the cur-     $300,000 per year for off-island referrals, which hos-
rent facility.                                               pital staff stated is usually completely absorbed by the
    The hospital is also in need of updating its electri-    second quarter. At that point, the hospital requests addi-
cal equipment and plumbing. The electrical panel has         tional funds, which are typically approved by the Pohn-
reached about 80 percent of its capacity, according to       pei legislature. This year the hospital estimates that the
staff.                                                       overall cost of off-island referrals will reach $500,000.
    Contributing to the overall lack of funds at the hos-        Pohnpei State Hospital currently has three working
pital is the high cost of long-distance telephone calls.     ambulances, but they only service the main island and
According to staff, Pohnpei State Hospital spends            are outdated, according to staff. They do not contain
around $100,000 per year on long-distance calls – in-        emergency response equipment or oxygen. One of the
cluding calls for telemedicine, where staff consult with     vehicles contains only a gurney in the back with noth-
the Tripler Medical Center in Honolulu, HI, for advice       ing to hold it in place. Hospital staff explained that am-
on diagnoses. The hospital rents a telephone line that is    bulance drivers in Pohnpei are just “taxi drivers” and
available 24 hours a day, seven days a week. Calls cost      they do not have any emergency medical training. Staff
$1.50 to $2 a minute to the United States and $2 to $3       noted that the salaries for the ambulance drivers are
to other foreign countries.                                  very low and the only qualification needed to hold the
    Employee retention is another challenge Pohnpei          position is the ability to drive. Hospital staff said there
State Hospital is facing. With only 30 physicians, in-       is “no doubt” people have died as a result of not having
cluding 10 specialists, and 60 nurses available to treat     access to ambulances and trained EMTs. z
                                                        14
CHUUK
     A plastic water bottle
overflowing with used
needles sat on a table near
the side of the Chuuk State
Hospital building. A yel-
low box marked “biohaz-
ard,” filled with syringes
and needles, sat next to
the bottle. Two salmon-
colored, plastic bags full
of waste from the morgue
rested against the build-
ing, their contents cook-
ing in the sun. They had
been sitting outside since
the day before.
    The inept disposal
of biohazardous waste
is one of many problems
that inhibits the Chuuk
State Hospital from pro-
viding a safe environment
for patients and staff. The
hospital also suffers from
a lack of clean water used
to bathe patients and wash
medical supplies; little
to no standard medical
equipment, including in-
cubators, portable X-Ray
machines, ventilators, and
wheel chairs; and a minute
staff with few resources
                            The hospital’s only incinerator sits among grass and weeds (left). A plastic bottle full
to perform medical pro- of used needles sits on a table outside of the hospital waiting for disposal (right).
cedures.
    Chuuk is also one of the four states in the Feder- in the designated area for dumping the waste. One staff
ated States of Micronesia, and includes six major island member said the hospital’s biohazardous waste was
groups. Chuuk State Hospital, built in 1973 and located taken to a local dump site where children often rum-
on the main island of Weno, is the only hospital to ser- mage through garbage.
vice all of the islands of Chuuk, a population of over         The incinerator, which looked like nothing more
53,000 people.                                            than a large, wood-burning stove, was located behind
    Disposing of waste is one of the hospital’s most the hospital and showed no signs of having been used.
serious challenges. Maintenance staff claimed that the The grass and plant life located near the structure that
facility’s biohazardous waste had been burned in the would normally die due to the high temperatures was
incinerator 72 hours before the OIG’s visit; however, thriving. Green weeds sprouted up knee-high from the
the typical mound of trash that would normally accu- base of the incinerator, which sat directly on the ground.
mulate over that span of time was nowhere to be found Environmental Protection Agency standards state that
                                                        15
Morgue employees embalm bodies on a metal gurney that lacks the drainage and suction functions of a typical
embalming table (left). Pohnpei State Hospital’s embalming table is far more advanced (right).

incinerators should sit on a cement pad.                       four working incubators, nurses sometimes have to
     A facility maintenance employee said the incinera-        place two infants in the small, covered structures need-
tor, which stands about 7 feet tall and 2 feet wide, is too    ed to keep them warm, according to a hospital nurse.
small to handle all of the facility’s waste, does not have         The only dental X-Ray machine at the hospital is
the capacity to produce enough heat to effectively burn        broken, which prevents dentists from performing the
waste, and lacks an air filter.                                comprehensive oral examinations used to detect needed
     Within the hospital, needles and other biohazardous       root canals and tooth extractions. No other dental facil-
items, including human specimen cultures, tissues, and         ity exists on the island, so Chuuk citizens are left with
waste, are deposited in designated containers. Howev-          few options for dental care.
er, maintenance staff claimed that they had never re-              There is only one functioning autoclave at the hos-
ceived formal training on how to handle and dispose of         pital, used to sterilize medical equipment; however,
biohazardous waste and that the hospital had no written        staff said it had been “acting up” lately.
policies or procedures for staff to follow.                        The hospital’s morgue staff also battle having to use
     Another major concern of hospital staff is their lack     broken, inadequate equipment for performing their du-
of a consistent and clean water source. Chuuk suffers          ties. Morgue employees embalm cadavers on a simple
from chronic power outages resulting from electrical           metal gurney that lacks the standard drainage and suc-
system deficiencies, and as a result, electricity is not       tion functions of a normal table used for this process.
available to pump water into the hospital 24 hours a           Employees have little control over the drainage of flu-
day. The hospital experiences periods of time without
running water lasting 8 to 9 hours, and staff are forced
to fill large drums to cook, bathe patients, and clean
medical equipment. This water is also polluted due to
sewage issues on the island. While patient wounds are
cleaned with saline, staff have no choice but the use this
contaminated water for all other purposes, according to
a staff supervisor. Due to the poor water quality, there
have been ongoing outbreaks of patients with diarrhea.
     Hospital staff considered the overall upkeep, main-
tenance, and cleanliness of the facility and medical
equipment to be in very poor condition. They said that                                           Cadaver refrigeration
when equipment at the hospital breaks, there is often no                                         space sometimes
back-up, and the ability to obtain the parts or expertise                                        runs out and bod-
to repair the equipment does not exist due to a lack of                                          ies have to be left
                                                                                                 outside in the heat.
funding or availability of spare parts.
                                                                                                 The morgue space
     Dust has gathered on the broken incubators piled up                                         appeared dirty and
in the hallway outside of the laundry room. With only                                            unkempt.
                                                          16
The kitchen floor is littered with fruits, pots, and              Broken incubators sit in a hospital hallway. Currently,
portable gas burners staff use to prepare food.                   the hospital only has four functioning incubators.

ids from bodies during the embalming process, and the
room used for the procedure appeared dirty and un-
kempt.
     There are also times when morgue staff do not have
enough refrigeration space and have no alternative but
to leave cadavers in body bags outside of the build-
ing. As a result of being left outside in the heat, bodies
decompose quickly and the potential for the spread of
infection escalates, both to hospital staff and the com-
munity.
     Morgue staff also lack the necessary training to
safely perform embalming, a procedure that has the po-            The hospital has only one operational ambulance.
tential to spread infectious diseases to the living. While        tal kitchen staff. Housekeeping staff also use standard
the senior morgue staff originally received training,             washing machines and only have one standard clothes
they have received no follow-up training in the last de-          dryer to process all of the hospital’s dirty laundry. There
cade, and junior staff have received no formal training           is also a shortage of basic supplies such as mops and
whatsoever.                                                       brooms, which staff stated makes cleaning and sanitiz-
     A morgue employee provided a hand-written wish               ing difficult.
list that included basic supplies he felt the morgue des-              Hospital staff are also in desperate need of many
perately needed. The list began with the request for an           everyday medical supplies, including baby cribs, wheel
embalming table with drainage and aspirator functions             chairs, crash carts, digital and glass thermometers, and
and included simple items such as body bags, gowns,               newborn blood pressure cuffs. The hospital only has
masks, gloves, trash bags, and a suturing needle. The             one ventilator, two defibrillators, and one cardiac moni-
note also stated, “Lastly, please provide me training for         tor. The hospital also has no portable X-Ray machine,
morgue, for certification. Thank you very much.”                  specialized heart stethoscopes, or treadmills (for stress
     Inadequate and broken equipment at the hospital has          tests).
also affected support services staff. Kitchen staff noted              Emergency Medical Services are also non-existent
that neither the pressure cooker nor the dishwasher in            for the people of Chuuk, due to limited supplies and
the kitchen have worked for years. Staff have to cook             resources. Chuuk State Hospital has only one opera-
for over 100 physicians and nurses, as well as a 150-             tional ambulance on the main island of Weno used to
patient capacity hospital, with few supplies. Because             transport people to the hospital. Staff admitted that be-
the stove is too small to accommodate industrial-size             cause the island only has one ambulance, more deaths
pots, staff have to use portable gas burners that sit on          occur because patients cannot receive care in time. In
the kitchen floor to prepare food, according to hospi-            addition, staff noted that the ambulance is not equipped
                                                             17
with any medical support equipment and the drivers
have no medical training. A hospital staff member said
those who are able to drive themselves or family mem-
bers to the hospital are often delayed by the island’s
roads, which are in disrepair. Roads riddled with giant,
water-filled potholes, sometimes the width of an entire
car, and sunken portions of roads, create driving haz-
ards and can slow traffic to a crawl.
    Emergency air transport to the outer islands and
atolls is currently unavailable, so individuals who live
in those areas must travel to the hospital by boat from
as far away as 160 miles, according to hospital staff. A
hospital physician noted that it can sometimes take pa-
tients a week to reach the hospital by boat. While there
are dispensaries (small clinics) on the islands, they are
generally only equipped to provide basic care.
    During Tropical Storm Chata’an, which devastat-
ed Chuuk in 2002 and left 47 people dead and dozens
more injured, hospital staff depended on the efforts of
non-governmental organizations, military volunteers,
and religious organizations to help transport victims
who lived on the outlying atolls and islands to the hos-
pital on Weno.                                                The records management unit struggles with re-filing
    Records management is another major problem               demands and missing patient charts.
for Chuuk State Hospital. Patient charts contain criti-       of physicians and specialists dramatically increases the
cal information related to an individual’s medical his-       need for patients to be referred off island.
tory, and records management plays a critical role in             Hospital staff explained that in order to receive
the diagnosis and treatment process. At the hospital,         off-island care, a patient must first be approved by a
physicians and nurses reported problems with missing          five-member physician approval committee. Once ap-
and duplicate files, causing diagnoses and prescriptions      proved, Compact Health Sector Grant funds cover the
to be made without knowing existing conditions and            air transportation, accommodations, and procedure
medications.                                                  costs for uninsured patients. For insured patients, Com-
    A hospital administrator explained that the records       pact Health Sector Grant funds cover only a portion of
management unit is overwhelmed with patient charts            the costs while the patient’s insurance is responsible
and re-filing demands. The office itself was jammed           for the rest. According to hospital staff, the hospital’s
with wall-to wall-shelves bursting with patient charts.       off-island referral budget is $300,000 a year. After the
Backlogs of information in need of filing remain stacked      money runs out, the hospital no longer pays to refer
throughout the area.                                          patients off island, and covering the expenses becomes
    As with many of the hospitals in the Pacific Islands,     the responsibility of the patient, which is generally im-
Chuuk State Hospital also has a great need for addi-          possible for the impoverished community, according to
tional medical staff, including physicians and regis-         the head of the off-island referral committee.
tered nurses. The hospital’s dental clinic only has five          Hospital staff explained that if a patient is actually
dentists that service the entire island. The hospital also    granted an off-island referral, the process is quite com-
has no pediatrician, urologist, orthopedist, physical         plicated due to strict Federal Aviation Administration
therapist, or ophthalmologist for a population of over        and commercial airline regulations. These regulations
53,000 people. Staff members noted that recruiting spe-       require that a passenger is stable and not contagious be-
cialized physicians is difficult due to low pay and poor      fore being transported. Hospital staff noted that the ap-
working conditions. They also said retention is an issue      proval process from the airline alone can take up to 72
due to low hospital morale – the overall lack of medical      hours, and they admitted that patients have died while
staff has created an already overtaxed staff. This lack       waiting to be transferred off-island. z
                                                         18
American Samoa




     A spread of deep green, freshly trimmed grass             pension plan, or life insurance.
stretched across the courtyard of the Lyndon Baines                 Hospital staff said obtaining skilled medical person-
Johnson (LBJ) Tropical Medical Center on Tutuila, the          nel is also a problem. Of the 36 physicians who work at
largest island in the American Samoa. Tan-colored aw-          LBJ, six are U.S. medical doctors, six are practitioners
nings provided visitors and patients shade from the sun        licensed under “territory law,” and 24 are practitioners
as the U.S. and American Samoan flags flapped in the           working under a “license issued without completing the
wind. While the outside of LBJ’s facility was clean and        requirements for licensure,” a senior staff member said.
well maintained, the inside told a difference story.           “I’m not sure what definition you put on the word ‘doc-
     With a lack of specialists, including a vascular          tor,’” the staff member added.
surgeon to treat patients with illnesses resulting from             According to staff members, the hospital continu-
diabetes, which according to a 2004 World Health Or-           ally battles issues concerning physician licensing. A
ganization survey affects 52.3% of men and 42.4% of            senior staff member said the American Samoa Gov-
women living in the American Samoa, and the need for           ernment has sent Samoan medical students to the Fiji
critical equipment such as a CT scanner, physicians are        School of Medicine, but many have not been able to
left making guesses about patient diagnoses.                   perform well and often return to the American Samoa
     Located in the South Pacific, American Samoa is           without completing an internship or residency. They re-
composed of five volcanic islands and two coral atolls         ceive their licenses anyway.
– or rings of coral islands. LBJ serves the entire popula-          “The American Samoa Health Services Regulatory
tion of the American Samoa, around 58,000 people.              board handed out licenses to medical officers without
     One of LBJ’s most serious problems is recruiting          them completing the requirements for licensure,” the
and retaining trained physicians and specialists – and         senior staff member said.
overworking the ones it does have.                                  LBJ’s difficulty in obtaining specialists has also
     “LBJ finds it difficult to source and keep qualified      affected patient care. Staff said patients coming to the
staff,” one senior staff member said. “Long working            hospital suffering from head injuries and heart attacks
hours and high stress contribute to staff illness.”            have died because specialists were not on island to treat
     Highest on the list of needs for the hospital, accord-    them.
ing to staff, are better salaries for hospital employees,           LBJ has three specialists who work for the hospital
which would help with recruiting and retaining staff.          on a “revolving contract,” according to hospital staff
According to senior staff members, physicians at LBJ           – two nephrologists, who work with patients suffering
do not even receive benefits such as health insurance, a       from kidney disease, and a cardiologist. These special-
                                                          19
A lack of funds contributes to the hospital’s inability to fix broken equipment like its C-Arm (left) or its dental X-
Ray (right) which staff temporarily have mended with duct tape.
ists visit the hospital for one week each quarter. A se-         In 2007, LBJ referred 137 patients off island for
nior staff member said the hospital has a great need for treatment to hospitals in Hawaii, the Philippines, and
a vascular surgeon due to the high number of dialysis New Zealand. Patients travel over 5 hours by plane to
patients in American Samoa.                                  receive care. A flight to the Philippines can take more
     Many American Samoan citizens are sent off-island than 24 hours. Some patients never make the flight.
for care to receive specialized treatment. A senior staff “Many people referred off island pass away,” the senior
member said physicians bring their patients’ cases be- staff member said. “Many people are not referred soon
fore the hospital’s referral committee “who determine if enough.”
the need is real and if the patient can be helped.” Patient      Staff said the ideal solution for limiting off-island
cases are prioritized by the level of severity, and patient referrals would be to recruit more specialists and obtain
names are withheld to protect the committee from “un- the proper equipment for them to perform more com-
due pressure,” the staff member said. Due to the high plex procedures. Employing more visiting specialists
cost of referring patients off island, the hospital can only would also assist in lowering referrals, they said.
afford to pay for “life threatening cases,” according to         Patients are not the only ones seeking help off is-
the staff member.                                            land. LBJ’s physicians have attempted to use “telemed-
     Referral costs are dependent on the illness and the icine” practices to connect with specialized physicians
severity, and they become the                                                        living in other parts of the world
                                            [Physicians] take more
responsibility of LBJ if the pa-


ber, last year, the hospital spent
                                     “
tient does not have insurance. of a guess at a diagnosis
According to a senior staff mem-
                                      than    know
                                                       “ for certain     what
                                                                                     for advice and assistance. LBJ’s
                                                                                     experiences with telemedicine,
                                                                                      however, have not been suc-
                                                                                      cessful. LBJ’s current system
$2.4 million sending patients off is going on.                                        has a poor screen resolution and
island and was reprimanded for                                                        “times out,” locking up sessions
exceeding its budget. This year, LBJ is required to stop and preventing staff from getting needed diagnosis in-
referring patients after $2 million is spent. At that point, formation. Staff have been told that improvements to
LBJ will no longer fund off-island treatment.                upgrade the system would cost around $38,000. Pa-
     The cost per patient for off-island care averages tients are sometimes left depending on the diagnosis of
$43,000, according to hospital staff. Patients are re- LBJ physicians who do not have expertise in certain
quired to sign a promissory note for any costs above areas.
$100,000, and LBJ pays the cost and then bills the patient.      It is not just medical personnel that LBJ struggles to
     “Often, collection is impossible,” the senior staff obtain. Another critical need for the hospital is modern
member said.                                                 equipment. According to staff, budget appropriations
                                                          20
cover little more than personnel and operational costs. they are not consumed by the fumes.
Staff must apply for grants to receive more funding for          Hospital staff also expressed a need for items such
supplies, watch surplus websites for needed equipment, as birthing beds, an ultrasound machine, incubators, a
and look for opportunities to obtain used equipment defibrillator, an infant warmer system, bassinet baby
when military hospitals close.                               warmers, suction regulators, and a fetal monitor, just to
    Staff said that in recent years, few funds have been name a few.
available to purchase large-scale medical equipment.             The annual average for live births at the hospital is
When equipment breaks, funds are                                                  1,320, according to staff, with a high
not available to replace it and staff                                             level of premature births. Babies are
and patients must do without the                                                  frequently “doubled up” in incuba-
service it provided.                                                              tors due to the lack of equipment.
    For example, because the radi-                                                     The facility does not yet have,
ology ultrasound is broken, patients                                              but is working toward attaining,
and radiology staff must go to the                                                a fire suppression system. At one
obstetrics unit to use its equipment.                                             point, the hospital was at risk of
Staff said this creates long lines of                                             losing its Medicaid funding due
patients needing treatment and lon-                                               to fire-safety violations. “The hos-
ger work hours for the hospital’s                                                 pital had persistent and serious
only radiologist.                                                                 fire-safety code deficiencies that
    Last year, the CT scanner, which                                              jeopardized its ability to main-
assists in pinpointing tumors, bleed-                                             tain the certification required for
ing in the brain, and aneurysms,                                                  Medicaid funding,” according to a
among other illnesses, broke. The                                                 December 2004 U.S. Government
replacement cost is $280,000, an                                                  Accountability Office report titled,
amount that exceeds LBJ’s total                                                   “American Samoa – Accountabil-
equipment budget.                                                                 ity for Key Federal Grants Needs
    “We just diagnose without the                                                   Improvement.”
service,” a senior staff member X-Ray staff are exposed to elevated                     The hospital obtained funding
said. Physicians have to “take more     levels of radiation because the walls       to install fire alarms and sprin-
of a guess at a diagnosis than know do not have lead in them. Only a thin           klers; however, the sprinkler sys-
                                        door encloses the X-Ray area.
for certain what is going on,” the                                                  tem does not work because of
staff member added.                                          water pressure issues in American Samoa. The hospital
    Staff also said there are no funds available to re- has applied and received funding to install a water tank
place the hospital’s broken “C-Arm,” used by orthope- to provide the water pressure needed.
dic surgeons. “This increases the off-island referrals,”         Transporting patients did not appear to be a con-
the senior staff member explained.                           cern for LBJ hospital staff members. With a $1 million
    In the dental clinic, the X-Ray machine is obsolete budget and a 42-member staff, including five trained
and mended with duct tape. The X-Ray chair was so paramedics, dispatchers, and EMTs, the hospital’s
worn that the dentist personally reupholstered it and Emergency Management System has been flourishing.
spray-painted the footrest. Dental clinic staff are also According to hospital staff, all vehicles contain oxygen
being exposed to elevated levels of radiation because the and defibrillators, and staff are able to respond to emer-
walls enclosing the X-Ray area do not have lead in them. gency calls within minutes. They respond to an average
    Appropriate equipment is also needed by dental of 400 to 500 calls per month and even service the outer
technicians whose responsibilities include making den- islands.
tures, partial dentures, and bridges. They need a work           Emergency staff do, however, have difficulty navi-
space with proper ventilation, a heating unit to mix their gating the rough terrain on the island. Accessing pa-
materials, and a Chrome Cobalt machine for fusing por- tients may require them to drive up steep mountains
celain to metal. Because their current work space does and sometimes leave their vehicle at the bottom of a
not have safe ventilation for the chemicals with which hill and trek up the mountain to reach patients in their
they are working, they have “jimmied” a duct system so homes. z
                                                          21
REPUBLIC OF PALAU
    The Minister of Health was
emphatic: The Belau National
Hospital (BNH) of Palau has no
problem recruiting or retaining
physicians and nurses, and BNH
has no shortage of “health pro-
fessionals.” When asked whether
he believed Palau was an area
suffering from a health profes-
sional shortage, the Minister of
Health replied that he did not be-
lieve Palau was short of medical
staff. “That would be news to me
if we were,” he stated. “There is
a difference in opinion when you
talk to the nursing staff. They are
always saying we are short staffed.”
    Hospital physicians and staff members disagreed lack of specialty providers. And while BNH is able to
with the Minister, stating that BNH is severely under- recruit physicians from nearby areas like Japan and the
staffed, in need of trained medical professionals, and Philippines, it still proves difficult. The lack of special-
indeed a health professional shortage area.                  ty physicians often leads to referring patients off island
    The lack of qualified health professionals, as ex- for care.
pressed by staff, is just one of many problems BNH is            BNH typically sends 124 patients off island every
facing. With old, broken medical equipment and sup- year to receive specialty care that the hospital is unable
plies; a cracking, crumbling building; and little training to provide locally due to a shortage of specialty or tertia-
for employees, the quality of care for the local popula- ry care providers. All cases require 75 percent approval
tion is abysmal.                                             from a five-member review board that meets weekly to
    One physician at BNH openly disagreed with the assess the necessity of sending patients off island. Most
Minister of Health stating that he feels BNH does have of the cases that are reviewed for off-island referral per-
difficulty obtaining nursing staff and specialty physi- tain to cardiovascular issues, kidney disease, or cancer
cians. He said re-                                                                                  care. Approval by
tention is “abso-                                                                                   the review board
                              Palau residents have been designated a
lutely” a problem
                      “
and while they are medically underserved population because of
“doing reasonably primary health professional shortages.
                                                                                     “              is only granted if it
                                                                                                    is determined that
                                                                                                    the patient requires
well, it’s still a                                                                                  a needed service
challenge. There are not enough, and the ones we have that cannot be provided locally and if the patient is able
are not fully trained.”                                      to cover 55 percent of the total cost, which is $7,000 on
    Another physician said, “Palau residents have been average. Government funds cover the rest.
designated a medically underserved population because            BNH also requires a 50-percent deposit up front by
of primary health professional shortages.” This physi-       patients in order to receive approval. This referral pro-
cian also noted that “in the case of allied health work- cess typically takes 3 days, at which point most patients
ers, almost all are Palauan, but less than 7 percent are are sent to the Philippines or occasionally to Hawaii.
fully certified in their fields.”                            However, patients unable to cover their portion of the
    Nursing staff at BNH agreed that recruiting and re- cost are simply not approved for off-island treatment.
taining physicians is difficult and that there is an overall Furthermore, BNH does not approve off-island refer-
                                                           22
A two-laned and hardly elevated causeway is the only road that links one part of the island to the next (above).
Both the causeway and the hospital’s extremely close proximity to the water’s edge (below) make hospital staff
feel their location is too risky.

rals for patients suffering from terminal illnesses for
which off-island treatment will not render a recovery.
     While hospital staff said they do occasionally run
out of beds for acute patients, they noted that approxi-
mately 10 acute care beds are regularly occupied with
long-term patients. Hospital staff explained that nor-
mally immediate and extended family take care of most
patients once they are released from the hospital. Some
patients, however, who have no family to return to actu-
ally remain in the hospital for long-term care.
     “We act as a skilled nursing facility,” one staff
member clarified.
     BNH staff explained that these are typically patients
who have been treated for their medical condition but
still need help with everyday activities or some form of      member. “We know this location is very risky.”
skilled nursing care.                                             BNH staff also recognized that much of their every-
     “They stay for months or sometimes until they die,”      day equipment is old and wearing out.
commented one hospital staff member, noting that these            “We have no maintenance plan to maintain the
patients typically do not pay anything to the hospital        equipment,” a staff member said.
during this time.                                                  Another hospital staff member clarified that while
     BNH staff also stated that they would like to con-       the hospital would like to better maintain its equipment,
struct a public health building in a safer location else-     the problem lies in its lack of funding to do so.
where on the island, which they believe would greatly             “Yes we get funding, but not for maintenance,” she
decrease their vulnerability and allow for patients to        explained. “The funding we do get is for fixed costs
continue receiving health care services in the event that     – personnel, supplies, fuel, just the basics we need to
something should happen to BNH. Hospital staff noted          get by.”
that if something happened to the nearby causeway,                For example, BNH’s main X-Ray machine is cur-
bridging one part of the island to the next, “We would        rently not functioning due to a software corruption.
lose our link to the community.”                              BNH staff have been waiting for some time for this
     “We are always scared of typhoons because of our         to be repaired. One staff member said, “We do have a
close proximity to the water,” commented one staff            backup but it is reaching its lifespan. Not having our
                                                             23
main X-Ray really hampers our                                                     orders on time, or at all.
ability to do a lot of diagnostic                                                     “The last 3 years we have
tests.”                                                                           been in a financial crisis,” one
    Not only is much of BNH’s                                                     hospital employee said, noting
equipment old and out of date, the                                                that BNH is attempting to slowly
actual facility is decrepit as well.                                              pay off its debts to old suppliers.
A hospital staff member noted                                                         “We are constantly out of
that particular areas of the men-                                                 stock. We place the order and
tal health unit contained barred                                                  then just have to wait and see
patient rooms, saying, “They                                                      when it comes,” another hospital
look like jail cells! Changing this                                               staff member said.
would be good.”                                                                       A BNH nurse described the
    And while the inside may be                                                   difficulties in obtaining simple
outdated, sections of the exterior,                                               everyday equipment and BNH’s
which are literally cracking and                                                  chronic shortage of supplies. She
crumbling, have gone unrepaired                                                   said there have been several in-
for more than 3 years. Metal sup-                                                 stances where BNH has run out of
ports hold up sections of the hos-                                                bilirubin lights, the lights used in
pital’s roof to keep it from col-                                                 incubators. As BNH experiences
lapsing.                             Metal supports have been attached to         a high incidence of jaundice in
    BNH physicians also ex- sections of the hospital’s exterior to keep infants, the nurse emphasized the
pressed dismay for what they the roof from collapsing.                            importance of having enough of
deem “very underdeveloped”                                                        these lights.
emergency transport services.                                  “A lot of times we buy them with our own money,”
    “We need to improve the skills of those that man she said. “Either we do this, or the babies may suffer.”
the ambulances,” one hospital staff member said. “[The         The nurse also pointed out that they had run out of
ambulance staff] can’t even triage to assess the severity blankets and they currently have no infant IV pumps.
of the case. They just transport.”                             “If a baby is born with congenital problems and we
    The same staff member stated that he believed it don’t have the proper equipment, the baby will prob-
was necessary to improve emergency response training ably die,” she opined.
to those who staff the ambulances because the current          When BNH is not struggling to obtain everyday
lack of training only compounds patients’ injuries or supplies, it seems that it is struggling to obtain phar-
causes complications by the time they actually reach maceuticals. BNH staff members expressed frustration
the hospital. Another staff member used a plane crash over their lack of autonomy, saying, “We go through
as an example, saying, “It would be scary to think that local vendors. They tie our hands a bit.”
people would have almost no care on their way to the           BNH staff noted that despite the fact that they pur-
emergency room.”                                          chase specific medications from their vendors for $35,
    Staff noted that because of the shortage of ambu- $40, or $50 dollars, the hospital only charges patients
lances, it may take hours for an ambulance to reach pa- $5 for each prescription. Furthermore, a nurse stated
tients located in more remote areas.                      she knew of different vendors BNH could use and re-
    In addition, BNH staff commented that they consid- ceive a 50 pack of medication for $4.50, whereas the
ered it imperative to improve the training of the public very same medication purchased through the local ven-
health nurses who work at the dispensaries. Staff ex- dors cost BNH $90 for a 10 pack.
plained that even though some patients may be closer in        BNH staff stated that they often run out of antibiot-
proximity to a dispensary, they often “just come straight ics. One staff member said, “We have been out of peni-
to the emergency room because they can only deal with cillin injections since last year.”
minor things at the dispensaries.”                             BNH has been using oral penicillin tablets instead.
    Finances are also of great concern. Hospital staff BNH staff explained that they can turn to private local
explained that due to outstanding balances with many pharmacies in emergency situations, but the prices are
of their suppliers, they often have difficulty receiving often much higher. z
                                                         24
Republic of the Marshall Islands
MAJURO




    The designated deposit area for
biohazardous waste at Leroij Atama
Medical Center (Medical Center) is a
pale green building with double doors
that are no longer attached to the build-
ing. Instead, they rest against the hun-
dreds of red biohazardous waste bags
that now tumble out of the entrance
way. Bright blue tarps are nailed
across the open roof of the building to
protect the ceiling-high piles of waste
from the elements. Open industrial-
size trash cans overflowing with red
biohazardous waste bags are scattered
across the rear of the hospital; used
syringes and latex gloves mixed with
soda cans and Styrofoam cups are
piled in a soggy mess from the recent Bags of biohazardous waste peek out from behind the broken doors of
rain. Neighboring homes sit just yards the designated waste storage area.
away from the debris. No fence or wall
prevents community access to the piles of biohazardous may appear to be out of control, it does not end there.
trash and medical waste.                                 The hospital’s incinerator site, located near the airport
    The Medical Center is one of two hospitals located in Majuro, houses eight storage containers full of bio-
within the Republic of the Marshall Islands, which has hazardous waste, some of which have been sitting for
a population of nearly 60,000 people spread across 29 so long they are completely overrun with vines. A hos-
atolls, and 5 main islands. The Medical Center is locat- pital staff member stated that approximately 4 months
ed on Majuro, the capital and most densely populated ago the local waste management company said the hos-
of the islands.                                          pital could no longer incinerate biohazardous waste un-
    While the waste situation at the Medical Center til a new incinerator was installed. The accumulation
                                                       25
Biohazardous                                             The hospital plans to reopen the eight storage contain-
waste piles up                                           ers and burn all the waste once the new incinerator is
everywhere                                               installed.
behind the                                               majority of the medical wards, records management,
hospital. Based                                          and the administrative offices. In 2005, a portion of the
on hospital staff
                                                         old wing was destroyed by a fire. No lives were lost;
estimates, the
hospital may                                             however, millions of dollars in medical supplies were
have as many                                             destroyed. Hospital staff noted that the walls of the old
as 4,000 bags                                            hospital wing are pre-fabricated and highly flammable,
of biohazardous                                          and despite the fact that plans are currently being final-
waste waiting to
                                                         ized to demolish the old wing and build a replacement,
be burned.
                                                         the hospital has no fire emergency plan.
of biohazardous waste behind the hospital and at the         A dedication memorial outside of the new wing,
incinerator site is a product of 4 months of neglecting  which was completed in 2005, identifies the new struc-
to incinerate anything.                                  ture as a “token of friendship and cooperation between
    According to a hospital staff member’s estimate,     Japan and the Republic of the Marshall Islands.” This
the facility produces approximately 30 to 35 bags of     wing is furnished with state-of-the-art medical equip-
biohazardous waste every day, which over 4 months
could mean the hospital has more than 4,000 bags of
biohazardous waste on its hands.
    With daily temperatures in Majuro averaging 80 de-
grees Fahrenheit, none of the eight storage containers
or the designated on-site biohazard building are tem-
perature controlled. A hospital staff member noted that
the hospital intends to open the containers and burn all
of the waste as soon as a new incinerator is installed.
This staff member also stated that the new incinerator
has been sitting at the incineration site for months wait-
ing to be installed. The installer stated that the equip-
ment would be put in place within days of the OIG’s
visit; however, nearly a month later, follow-up contact
identified that the incinerator was still non-functional.
    The Medical Center is divided between an old wing
constructed in 1986 containing conference rooms,
physical therapy, the morgue, storage, housekeeping The new incinerator has been sitting as the incinera-
and maintenance, and a brand new wing that houses the tion site for months, waiting to be installed.
                                                    26
ment, all complimentary from Japan and Taiwan. Hos-
pital staff noted that the hospital continues to receive
medical supplies such as wheelchairs as “gifts” from
the two countries.
     While the Medical Center may not struggle with
obtaining physical equipment and supplies due to its
close relationship with Japan, many staff members said
they struggle to receive training.
     The hospital’s physical therapist expressed her frus-
tration that she must find and obtain training for herself
and her staff, noting that this is typically only accom-
plished through grants or gifts. She stated that being
the only physical therapist searching for training op-
tions takes valuable time away from her primary task
of working with patients.
     A Medical Center pharmacist who had previously
held an administrative position at the hospital stated
that he felt the lack of training was a real problem and
resulted in pharmacy technicians tackling work beyond
their capacities. He expressed dissatisfaction that train-
ing was only available if it could somehow be obtained
individually and felt it was not a hospital priority. The
hospital’s only embalming technician noted that he has
never received formal training.
     According to hospital administrators, the hospi-
                                                              Boxes labeled “Love from Taiwan” contain medical
tal currently deals with a medical records system that        supplies donated to the Medical Center (above). Japan
contains duplicate and missing charts. Two years ago,         also continuously donates items such as incubators to
the Medical Center began implementing an electronic           the hospital (below).
medical records system and began to transfer its inven-
tory of records online. This process was halted when
the hospital’s server reached capacity and staff also re-
alized they had a database that contained over 100,000
medical records for a population of only 57,000. Hospi-
tal administrators are still working to correct this prob-
lem.
     Despite the fact that the Ministry of Health’s Sec-
retary of Health classified diabetes as “the number one
cause of morbidity” in the Marshall Islands, the Medi-
cal Center no longer provides hemodialysis services.
Hemodialysis is the most common method used to treat
advanced and permanent kidney failure.
     Diabetes is currently the most frequent cause of
kidney failure, even when the disease is controlled.
The Medical Center staff stated that they eliminated
this service years ago because it was not economically
feasible to provide. They also stated that they had no
idea how many citizens in Majuro needed this service
because according to a Medical Center administrative
staff member, this population had either died or left the
island for a place where this service is available. z
                                                         27
U.S. Virgin Islands
ST. THOMAS/ST. CROIX
     In August 2006, the Virgin
Islands Department of Health
hired a 27-year-old female pedi-
atrician for its community health
center on St. Croix. One month
later, after complaining of a se-
vere stomachache, she had sur-
gery at the Governor Juan F.
Louis Hospital and Medical
Center (JLH) to remove gall-
bladder stones. Within 2 days,
she developed complications
that led JLH physicians to ar-
range for her to receive specialty
care in New York. Her condition
only worsened, however, and
physicians were unable to stabi- Schneider Regional Medical Center is located on the island of St. Thomas.
lize her for transport. She began
to code every hour, her condition deteriorating through and the sometimes extremely high cost of air transpor-
the night. By morning, she was dead.                        tation off island. Even with all of these factors covered,
     Due to the lack of available specialists in the Virgin however, there are still instances in which patients are
Islands, patients needing specialized emergency care, too sick to safely make the long plane ride.
even those with the best health insurance and means to          SRMC officials noted that most often patients are
leave the island, often end up in life-threatening situa- referred off island for complex traumas, neonatal inten-
tions, sometimes ending in death.                           sive care, complicated pregnancies and deliveries, and
     This is just one of many problems hospitals in the for severe burns. SRMC officials stated that the spe-
Virgin Islands are facing. They also lack specialized cialty services necessary to treat these conditions are
nurses, having to hire outside of the Virgin Islands and not always available locally and therefore require off-
pay double the normal salary; are burdened treating pa- island referrals.
tients needing long-term care, who can end up staying           One specialty service the hospitals in the U.S. Vir-
for years; and must deal with deteriorating large-scale gin Islands are severely lacking is mental health care.
equipment, including an overworked hospital cooling There is only one inpatient mental health facility for
system.                                                     St. Thomas, St. John, and St. Croix, which maintains a
     The U.S. Virgin Islands includes three main islands, mere 32 beds to provide care for chronically mentally
St. Thomas, St. John, and St. Croix. Two hospitals, ill patients. The Commissioner of Health said the Vir-
Schneider Regional Medical Center (SRMC), located gin Islands’ lack of mental health services often forces
on St. Thomas, and JLH, located on St. Croix, service patients to travel off island to receive care.
these three islands and their population of approximate-        There are currently 27 patients from the U.S. Virgin
ly 108,448 people.                                          Islands who are being treated within the United States’
     Due to the lack of specialists in the U.S. Virgin Is- mainland for mental health issues, typically for schizo-
lands, many patients are referred off island for care. phrenia or long-term clinical psychosis. The Commis-
Several barriers can stand between a patient and receiv- sioner explained the importance of treating mental ill-
ing this care, including the need for an accepting hospi- ness in a comfortable and familiar setting, which cannot
tal, inadequate or an altogether lack of health insurance, occur when patients are sent to the mainland. She also
                                                         28
stressed the importance of family involvement.              compensated care – patients who do not pay after being
     “You’re away from your family in a strange envi- billed by the hospital – continues to skyrocket. SRMC
ronment,” she said. “How much progress can we really and JLH officials stated that they incur approximately
expect them to make?”                                       $40 million a year in uncompensated costs because they
     The U.S. Virgin Islands Department of Health are unable to refuse treatment to any person.
(DOH) covers all costs associated with off-island men-          “Federal law says if a patient comes to our door we
tal health care. The 27 off-island patients account for must treat them or stabilize them,” an SRMC official
$2.1 million in DOH expenses per year. The Commis- said.
sioner stressed the financial burden of treating these pa-      While the hospitals have difficulty providing care
tients off island, citing instances where DOH has paid to U.S. Virgin Islands citizens, they also struggle to
as much as $31,000 per month to treat emergency men- provide care to non-residents, including tourists and the
tal health cases.                                           growing number of undocumented individuals arriving
     To help alleviate these pressures, DOH recently be- from places like Haiti and the Dominican Republic.
gan construction of an additional mental health facility        “We can’t refuse anyone,” the Commissioner said.
and anticipates it will be completed within the year. The “We’ve had individuals who lose their lives trying to
Commissioner noted that this facility will help “prepare come in [to the U.S. Virgin Islands]. There are very
individuals for the transition” from inpatient care to pregnant women who risk flying just to have a baby on
normal life.                                                American soil.”
     JLH and SRMC also                                          SRMC officials explained that some of the diffi-
struggle to recruit spe-                                                                   culties associated with
                                    We’ve     had     individuals      who     lose
                            “
cialists, especially critical
care nurses. As a result, their lives trying to come in [to the
they are often left with no U.S. Virgin Islands]. There are very                  “
                                                                                           treating undocumented
                                                                                           individuals are that they
                                                                                           often do not speak Eng-
choice but to use “agency pregnant women who risk flying just lish and only come to
nurses,” who are relocated                                                                 the hospital when they
to the U.S. Virgin Islands    to  have     a  baby      on  American        soil.          are experiencing severe
for short-term nursing po-                                                                 medical problems that
sitions of typically only 3 months. JLH pays $115,000 require complicated and costly treatments.
per year for an agency nurse, as opposed to $45,000 for         Along with the constant stream of patients both
a non-agency nurse. According to JLH administrators, documented and undocumented, both SRMC and JLH
the cost for agency nurses includes the benefits they re- struggle housing patients long-term. JLH staff mem-
ceive, such as housing and transportation.                  bers stated that there are approximately 9 to 10 beds
     JLH officials said that due to the short length of occupied at all times with patients who are ready for
stay for agency nurses, they are constantly training new discharge yet still need daily assistance or skilled nurs-
staff, calling it “a never ending process.”                 ing services, and many remain at the hospital until they
     Officials noted that because they can only interview die. Some have stayed for as long as 14 years.
agency nurses by telephone for future positions, they           JLH staff explained that while family members and
are unable to truly know if the nurses will be a “good relatives typically fill the role of caregiver for patients
fit” for the hospital. There have been times, JLH of- needing this type of care, there are times when patients
ficials recalled, when they “have been stuck having to have no family to return to.
train or educate” agency nurses because the skills they         “Sometimes the families have abandoned them;
anticipated the nurses would have “just weren’t there” sometimes they don’t have families; sometimes the
when they arrived in the U.S. Virgin Islands.               families just don’t want to deal with it,” one JLH staff
     One staff member commented that “there is no com- member said.
mitment from this type of personnel.” She added, “A lot         Currently, there are only 200 long-term care beds
of them look at it like a vacation and they come with available on St. Croix, and JLH officials estimate they
an expectation that they can enjoy the environment, in- would need at least three times as many beds to fill the
stead of a focus on the organization.”                      long-term care needs of the community.
     As the cost of obtaining specialty nursing staff rises     SRMC officials noted that they experience the same
for hospitals in the U.S. Virgin Islands, the cost of un- problems. One staff member said SRMC has even tried
                                                        29
to find care for these patients off island,
stating, “The challenge we have is find-
ing home health care that will accept
these patients that can’t pay. We know
staying in the hospital only increases
their morbidity.”
     In addition to housing patients need-
ing long-term care, SRMC and JLH staff
also struggle with their quickly aging
and deteriorating large-scale equipment.
For example, SRMC’s cooling system is
currently operating at 100 percent of its
capacity with four chillers that run 24
hours a day, 7 days a week. SRMC staff
members stated that there is no ability
to turn one of the systems off without
the effects being felt immediately by
patients. Because the hospitals have no
capability to shut these chillers off, main- Juan F. Louis Hospital and Medical Center is located on the island of
tenance staff must repair them while they St. Croix.
are running, a risky endeavor.                              and send patients’ charts from Miami to SRMC; they
     The chillers are also located on the hospital roof, a also noted that this can be a timely process.
location staff members note exposes the equipment to            While hospitals in the U.S. Virgin Islands may of-
the sometimes harsh elements, which only aids in the ten look to the U.S. mainland for medical and auxil-
premature deterioration of parts.                           iary services, JLH officials expressed their frustration
     Due to an antiquated water heating system and on- in being compared to U.S. medical facilities. “There
going maintenance issues, SRMC has also struggled to is a very cynical population of statesiders,” one JLH
provide consistent hot water to patients and doctors. physician said. He commented on his frustration in be-
Additionally, because the U.S. Virgin Islands Water ing compared to stateside hospitals and being expected
and Power Authority has recently been experiencing to perform at the same standards and provide the same
problems, the hospital loses power often and the back- services with less resources and a starkly different situ-
up generators must kick on. Because of the generators’ ation. “We are the only show in town,” the physician
frequent use, one of the generator’s radiators has now said. “We have such meager resources and millions and
developed a severe leak. An SRMC staff member said, millions of dollars in uncompensated care, yet we are
“Every time we run it, the leak gets bigger and bigger expected to perform at the same standard as the larger
and bigger.”                                                players.” Another hospital official expressed a similar
     SRMC also struggles with disposal of biohazardous sentiment, saying, “The ironic part of it is, whatever
waste. Both SRMC and JLH ship biohazardous waste pertains to the best funded hospital in the United States
off island. One SRMC official stated that “EPA banned also pertains to us.”
our incineration operations in 1996 due to the fact that        However, what pertains to hospitals and patients on
the hospital was located in a residential area.”            the U.S. mainland does not necessarily always apply
     Since this time, SRMC must freeze infectious waste to those in the U.S. Virgin Islands, most notably when
in a 3,000-square-foot freezer, package the waste, and it comes to financial aid from U.S.-based pharmaceu-
ship it to Florida every 2 weeks. This process costs tical companies. Many pharmaceutical companies in
SRMC $300,000 a year.                                       the United States have patient assistance programs that
     Additionally, because of the lack of physical stor- will cover the entire cost of qualifying patients’ phar-
age space at SRMC, in 2005, SRMC paid to ship a large maceuticals. SRMC officials recalled instances where
portion of its older medical records to be stored and patients in the U.S. Virgin Islands have been ineligible
maintained by a company in Miami, FL. Staff stated for these benefits due to the fact that “they were not part
that they regularly incur additional expenses to retrieve of the contiguous states.” z
                                                        30
RECOMMENDATIONS
    We believe it is profoundly difficult to recommend solutions or prioritize expenditures, as we uncovered a
myriad of health care problems within the seven insular areas. No simple solution lends itself to correction of
these problems; however, should any form of relief, aid, or assistance at any time become available, it is our rec-
ommendation that the following five areas are the first to be addressed:

       •   The shortage of fundamental supplies and medicines
       •   Inadequate management of patient records
       •   The shortage of specialty physician care, creating the need to transport critically ill patients off island
       •   Inadequate, antiquated, and damaged facility infrastructure
       •   Inappropriate biohazardous waste disposal


                                                               Sincerely,



                                                               Earl E. Devaney
                                                               Inspector General




                                                          31
 
 
 
 
 




         




     
